fT

C@OCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850 No. 19-670

ARNOLD FLECK,
Petitioner,

v.
JOE WETCH; AUBREY FIEBELKORN-ZUGER;
TONY WEILER; and PENNY MILLER,

Respondents.

AFFIDAVIT OF SERVICE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 17th day of February, 2020, send out
from Omaha, NE 2. package(s) containing 3 copies of the REPLY IN SUPPORT OF PETITION FOR A WRIT OF
CERTIORARI in the above entitled case. All parties required to be served have been served by Priority Mail. Packages were

plainly addressed to the following:
SEE ATTACHED

To be filed for:
TIMOTHY SANDEFUR*
JACOB HUEBERT
*Counsel of Record
GOLDWATER INSTITUTE
SCHARF-NORTON CENTER FOR
CONSTITUTIONAL LITIGATION
500 E. Coronado Road
Phoenix, AZ 85004
(602) 462-5000
litigation@goldwaterinstitute.org

Subscribed and sworn to before me this 17th day of February, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary ‘
State of Nebraska fe EC Mite Qudraw- he Gh
My Commission Expires Nov 24, 2020 a *

 

Notary Public

39464
 

 

Attorneys for Respondents

Sarah Elaine Harrington Goldstein & Russell, P.C. 202-362-0636
Counsel of Record 7475 Wisconsin Avenue
Suite 850

Bethesda, MD 20814

sharrington@goldsteinrussell.com
Party name: Joe Wetch, Aubrey Fiebelkorn-Zuger, and Tony Weiler

James Edward Nicolai North Dakota Office of Attorney General 701-328-3640
Counsel of Record 600 East Boulevard Avenue, Dept. 125
Bismarck, ND 58505-0400

jnicolai@nd.gov

Party name: Petra Mandigo Hulm

 

 
